                 U.S. Department of Agriculture

                    Office of Inspector General
                                Western Region




       Audit Report

Agricultural Research Service
    Management Controls
 Over Research Agreements




                         Report No. 02601-1-SF
                                     July 2009
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




July 15, 2009

REPLY TO
ATTN OF:         02601-1-SF

TO:              Edward B. Knipling
                 Administrator
                 Agricultural Research Service

ATTN:            Steven Helmrich
                 Director
                 Financial Management

FROM:            Robert W. Young             /s/
                 Assistant Inspector General
                  for Audit

SUBJECT:         ARS Management Controls Over Research Agreements


This report presents the results of the subject audit. Your written response to the official draft report,
excluding the attachments, is included as exhibit D. Excerpts from the response and the Office of
Inspector General’s (OIG) position are incorporated into the relevant sections of the report. Based on
the information in your written response, we accepted your management decision on
Recommendations 1 and 2. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

Management decision has not been reached on Recommendation 3. The information needed for
management decision is set forth in the OIG Position section for this recommendation. In accordance
with Departmental Regulation 1720-1, please furnish a reply within 60 days showing the actual or
planned timeframe for implementing this recommendation. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a maximum of
6 months from report issuance, and final action to be taken within 1 year of each management
decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
review.
Executive Summary
Agricultural Research Service—Management Controls Over Research Agreements
(Audit Report No. 02601-1-SF)

Results in Brief                      The Agricultural Research Service (ARS) serves as the U.S. Department of
                                      Agriculture’s in-house research agency responsible for ensuring high-quality
                                      food, assessing the nutritional needs of Americans, and fostering a
                                      competitive agricultural economy. It also funds research projects through
                                      cooperative agreements with other organizations, such as colleges and
                                      universities. During fiscal years (FYs) 2005 and 2006, ARS had 2,018 open
                                      agreements with average annual obligations of $134 million, or about
                                      10 percent of the agency’s annual budget. 1 To ensure that cooperative
                                      agreements were properly administered, we reviewed ARS’ management
                                      controls over them and assessed whether cooperators (1) timely managed
                                      research project milestones, and (2) complied with their agreements’
                                      provisions, such as using funds for their intended purpose.

                                      Nationwide, we reviewed ARS’ management controls over deobligations on all
                                      121 agreements that expired with unused funds in FYs 2005 and 2006. We also
                                      sampled 31 open agreements at 2 of 8 ARS area offices to determine if the
                                      cooperators timely managed their research projects. 2 In addition, we reviewed
                                      cooperators’ internal financial reports and supporting documents, such as
                                      invoices, for 10 of the 31 agreements to ensure ARS reimbursed cooperators
                                      for allowable costs.

                                      Overall, we found that ARS properly administered its agreements. Although
                                      we identified unused funds totaling $2.75 million that should have been
                                      deobligated, the agency has since strengthened its controls over the
                                      agreement close-out process. We also found one cooperator that ARS
                                      reimbursed for unallowable costs totaling nearly $51,000. (See exhibit A for a
                                      summary of monetary results.)

                                      ARS Did Not Timely Deobligate $2.75 Million from Expired Agreements

                                      When an agreement expires, ARS’ procedures require that any funding not
                                      used by the cooperator be deobligated by the agency within 6 months. 3 After
                                      analyzing ARS’ agreements databases, we determined that the agency did not
                                      timely deobligate unused funds from 32 of 121 agreements that expired in
                                      FYs 2005 and 2006. Area offices told us that this occurred because they
                                      lacked the staff to close out all expired agreements within 6 months of the
                                      agreements’ expiration dates, as prescribed by agency procedures. As a
                                      result, unused funds totaling $2.75 million were not made available for other

1
  The agreements can last as long as 5 years with ARS obligating funding on a year-by-year basis through amendments to the original agreement.
2
  There were 464 open agreements with $180 million in funding at the 2 selected area offices. The 31 sampled agreements represented $72 million.
3
  Extramural Agreements Manual 280.0, sec. 2104, dated Apr. 1994.

USDA/OIG-A/02601-1-SF                                                                                                                              Page i
                                     research projects. Further, the unused funds were vulnerable to abuse because
                                     the cooperators had access to the funds after the agreements expired.

                                     The Pacific West Area Office Reimbursed a Cooperator $50,740 in
                                     Unallowable Costs

                                     For 10 agreements, we reviewed cooperators’ internal financial reports and
                                     supporting documents for $1.7 million in total expenses to determine if the
                                     cooperators’ reimbursements were allowable. 4 Overall, we found that ARS’
                                     controls over cooperators’ use of funds were adequate. However, we
                                     identified one agreement in the Pacific West area office where the agency
                                     reimbursed a cooperator for $50,740 in unallowable costs. Those costs
                                     included $39,667 for tuition reimbursement, which is not permitted under
                                     Federal law when the cooperator is a State cooperative institution. The
                                     remaining $11,073 in unallowable costs was for laboratory equipment that had
                                     been purchased but was later returned to the seller without crediting ARS.

Recommendations
In Brief                             We recommend that the ARS Administrator:

                                      •     Direct the appropriate area offices to deobligate any remaining unused
                                            funds on their expired agreements, and emphasize at the next scheduled
                                            training that the agreements specialists must follow close-out procedures
                                            for deobligating any unused funds within 6 months of the agreement’s
                                            expiration date.

                                      •     Recover from the cooperator $50,740 in unallowable costs.

Agency
Response                             In its written response, dated April 3, 2009, ARS concurred with the reported
                                     findings and recommendations. ARS’ response, excluding one enclosure, is
                                     included in exhibit D of this report.


OIG Position                         We accept ARS’ management decision for Recommendations 1 and 2. The
                                     actions needed to reach management decision on Recommendation 3 are
                                     provided in the OIG Position section after this recommendation.




4
  We reviewed cooperators’ expenditures for 10 of the 31 sampled agreements and, depending on the results, we planned to either expand or limit our
review. Since we only identified one agreement with unallowable costs totaling $50,740, we did not expand our review.

USDA/OIG-A/02601-1-SF                                                                                                                         Page ii
Abbreviations Used in This Report


ACL                  Audit Command Language (software)
ADODR                Authorized Departmental Officer’s Designated Representative
ARS                  Agricultural Research Service
C.F.R.               Code of Federal Regulations
EAD                  Extramural Agreements Division
FY                   Fiscal Year
HHS                  U.S. Department of Health and Human Services
OCFO                 Office of the Chief Financial Officer
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
P.L.                 Public Law
REE                  Research, Education, and Economics
SF                   Standard Form
U.S.C.               United States Code




USDA/OIG-A/02601-1-SF                                                              Page iii
Table of Contents

Executive Summary ................................................................................................................................. i 

Abbreviations Used in This Report ......................................................................................................iii 

Background and Objectives ................................................................................................................... 1 

Findings and Recommendations............................................................................................................ 3 

    Section 1         Financial Controls ......................................................................................................... 3 

        Finding 1  ARS Did Not Timely Deobligate $2.75 Million from Expired Agreements ............... 3 
                        Recommendation 1 .......................................................................................... 4 
                        Recommendation 2 .......................................................................................... 5 

    Section 2         Cooperator Costs ........................................................................................................... 6 

        Finding 2  Pacific West Area Office Reimbursed a Cooperator $50,740 in Unallowable
                     Costs ........................................................................................................................ 6 
                           Recommendation 3 .......................................................................................... 7 

Scope and Methodology .......................................................................................................................... 8 

Exhibit A – Summary of Monetary Results ....................................................................................... 11 
Exhibit B – Audit Sites ......................................................................................................................... 12 
Exhibit C – Obligated Funds on the 32 Expired Agreements ........................................................... 13 
Exhibit D – Agency Response .............................................................................................................. 14 




USDA/OIG-A/02601-1-SF                                                                                                                     Page iv
Background and Objectives
Background                              ARS is the principal in-house research agency of the U.S. Department of
                                        Agriculture. 5 The agency’s mission is to conduct research that develops
                                        solutions to agricultural problems of high national priority. Its research
                                        ensures high-quality food; assesses the nutritional needs of Americans; and
                                        sustains a competitive agricultural economy. The agency had an average
                                        annual budget of $1.4 billion in FYs 2005 and 2006, and it performed
                                        research on about 1,000 projects during those years.

                                        In addition to its in-house projects, ARS funds research through
                                        cooperative agreements with other organizations, such as colleges and
                                        universities. 6 Cooperative agreements specify, among other things, what
                                        research objectives are to be accomplished and how those objectives should be
                                        met by each party. The agreements’ objectives are intended to augment
                                        in-house research projects.

                                        In FYs 2005 and 2006, ARS provided $134 million in funds to cooperators
                                        annually to perform research through cooperative agreements. Under these
                                        agreements, ARS and cooperators jointly plan, fund, and execute research
                                        projects to the mutual benefit of both. The agreements can last as long as
                                        5 years with ARS providing funding on a year-by-year basis through
                                        amendments to the original agreement.

                                        ARS’ agreement specialists and technical representatives are responsible for
                                        managing the agreements. Agreement specialists, located at each of ARS’
                                        eight area offices, authorize funding, approve budget changes, and maintain
                                        agreements’ official files. Nationwide, ARS has about 800 technical
                                        representatives in 100 locations. These research scientists, officially referred
                                        to as the “Authorized Departmental Officer’s Designated Representative”
                                        (ADODR), are responsible for overseeing cooperators’ research to ensure
                                        compliance with agreements’ terms. ADODRs’ role includes collecting and
                                        reviewing cooperators’ performance and financial reports, which are then
                                        sent to ARS’ agreement specialists who authorize additional annual funds as
                                        appropriate.

                                        Figure 1 shows a map of ARS’ area offices and other locations.




5
    ARS was established under 5 U.S.C. 301 and the Reorganization Plan No. 2 of 1953.
6
    These colleges and universities include those designated as “State cooperative institutions,” commonly known as land-grant colleges and universities.

USDA/OIG-A/02601-1-SF                                                                                                                             Page 1
                                                     Figure 1: Map of ARS’ Eight Area Offices and Other Locations




                                     Congress specifically excluded the agreements from coverage under the
                                     Federal Grants and Cooperative Agreement Act of 1977, 7 which put them
                                     outside the scope of assistance regulations of the Department. 8 In doing so,
                                     Congress intended to foster partnerships between public and private agencies
                                     that conduct research in the agricultural sciences by reducing the regulatory
                                     requirements.

                                     However, to promote effective controls, ARS implemented parts of these
                                     regulations within its policies and agreement terms, such as requiring financial
                                     and progress reports from the cooperator and requiring that cooperators follow
                                     the Office of Management and Budget’s (OMB) principles for determining
                                     reimbursements under the agreements.

Objective                            To ensure that cooperative agreements were properly administered, we
                                     reviewed ARS’ management controls over them and assessed whether
                                     cooperators (1) timely managed research project milestones, and (2) complied
                                     with their agreements’ provisions, such as using funds for their intended
                                     purpose.




7
 P.L. 95-224; 31 U.S.C. 63
8
 Departmental assistance regulations include 7 C.F.R. 3015 (titled “Uniform Federal Assistance Regulations”) and 7 C.F.R. 3019 (titled “Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations”), dated
Jan. 1, 2006.

USDA/OIG-A/02601-1-SF                                                                                                                       Page 2
Findings and Recommendations
Section 1              Financial Controls



Finding 1                             ARS Did Not Timely Deobligate $2.75 Million from Expired
                                      Agreements

                                      Nationwide, ARS did not timely deobligate unused funds from 32 of
                                      121 agreements that expired in FYs 2005 and 2006. Area offices told us that
                                      this occurred because they lacked the staff to close out all expired agreements
                                      within 6 months of the agreements’ expiration dates, as prescribed by agency
                                      procedures. As a result, unused funds totaling $2.75 million were not made
                                      available for other research projects. Further, the unused funds may be
                                      vulnerable to improper spending because the cooperators have access to the
                                      funds after the agreements expire.

                                      According to ARS’ manual, agreement specialists are responsible for closing
                                      out expired agreements and have “primary responsibility for initiating action to
                                      deobligate any unused funds remaining in [an expired] agreement” within
                                      6 months of the agreement’s expiration date. 9 The deobligated funds may be
                                      obligated under another agreement when it “is substantially identical in scope
                                      and purpose” to the expired agreement. 10

                                      We reviewed ARS’ databases and found that 121 agreements had expired with
                                      unused funds in FYs 2005 and 2006. In total, ARS did not deobligate 71 of
                                      these agreements within the 6-month period. Although the agency eventually
                                      deobligated 39 of the agreements, it did not deobligate the remaining 32,
                                      which had unused funds totaling $2.75 million (see exhibit C for a list of the
                                      32 agreements). As a result, the unused funds were not made available for
                                      other research projects.

                                      We discussed the issue with agreement specialists at the Pacific West and Mid-
                                      South area offices, which had the highest numbers of expired agreements past
                                      the 6-month deobligation deadline. They told us that the backlog existed
                                      because they lacked the staff to close out all expired agreements within
                                      6 months of the agreements’ expiration dates, as prescribed by agency
                                      procedures. ARS Headquarters officials were aware of the backlogs and
                                      explained that expired agreements are put on the “backburner” in order for area
                                      offices to focus on servicing existing agreements and issuing new ones.

                                      However, since cooperators can withdraw the funds until they are
                                      deobligated, the unused funds may be vulnerable to improper spending.

9
    Extramural Agreements Manual 280.0, sec. 2104, dated Apr. 1994.
10
     ARS Policy No. 323.8, sec. 2, dated Sep. 16, 1999.

USDA/OIG-A/02601-1-SF                                                                                          Page 3
                                        Agreement terms allow cooperators to make their final withdrawals of funds
                                        for a period of 90 days after the agreements’ expiration date. Although our
                                        review did not identify any misuse of the funds, we identified one cooperator
                                        in our sample who continued to make withdrawals after the
                                        90-day period.

                                        A recent GAO report stated, “If even a small fraction of total [agreement]
                                        funding is not spent in a prudent and timely fashion, it can create potential
                                        problems [such as] preventing the reallocation of scarce resources to address
                                        other needs, or making federal funds more susceptible to improper spending
                                        or accounting as monitoring diminishes over time.” 11 Therefore, in
                                        accordance with agency procedures, ARS should deobligate the $2,745,276 on
                                        the 32 expired agreements to (1) make the funds available for other research
                                        projects, and (2) prevent the potential misuse of funds.

                                        Subsequent to our fieldwork, the agency strengthened its administrative
                                        controls by expanding its management review program in June 2008 to
                                        monitor the close-out process. We reviewed the new procedures and believe
                                        they will be effective in monitoring area offices’ progress in timely
                                        deobligating funds from expired agreements.

                                        Also, the Pacific West and Mid-South area offices have hired additional staff to
                                        assist in closing out expired agreements. While this should eliminate the
                                        backlogs, ARS should still emphasize at the next scheduled training for
                                        agreements specialists that close-out procedures must be followed. 12

Recommendation 1
                                        Direct the appropriate area offices to deobligate any remaining unused funds
                                        on their expired agreements.

                                        Agency Response.

                                        In its April 3, 2009, response, ARS agreed with the recommendation. ARS
                                        provided (1) a detailed list of the amounts and dates of the deobligations for all
                                        expired extramural agreements identified in the audit report and
                                        (2) documentation supporting each deobligation that was listed.

                                        OIG Position.

                                        We accept ARS’ management decision for this recommendation.




11
     “Grants Management,” GAO-08-432, dated Aug. 2008.
12
     Agreements Specialists must complete periodic training to maintain their signatory authority.

USDA/OIG-A/02601-1-SF                                                                                             Page 4
Recommendation 2
                   Emphasize at the next scheduled training that the agreements specialists must
                   follow close-out procedures for deobligating any unused funds within
                   6 months of the agreement’s expiration date.

                   Agency Response.

                   In its response, dated April 3, 2009, ARS agreed with the recommendation.
                   ARS stated that its Extramural Agreements Division held a bi-monthly
                   Authorized Departmental Officer teleconference on March 12, 2009. During
                   this teleconference, the findings of the audit report, the close-out procedures,
                   and requirements to deobligate unused funds within 6 months of the
                   agreement’s expiration date were discussed with added emphasis on
                   eliminating any backlog of expired agreements that were not officially closed
                   out.

                   OIG Position.

                   We accept ARS’ management decision for this recommendation.




USDA/OIG-A/02601-1-SF                                                                       Page 5
Section 2            Cooperator Costs




Finding 2                            Pacific West Area Office Reimbursed a Cooperator $50,740 in
                                     Unallowable Costs

                                     For 1 of our 10 sampled cooperators, the Pacific West area office reimbursed
                                     $50,740 in unallowable costs. 13 This occurred because the ADODR charged
                                     with oversight of the agreement mistakenly overlooked these costs in the
                                     cooperator’s detailed expense reports. As a result, ARS overpaid the
                                     cooperator for the research.

                                     Federal law states that, “no indirect costs or tuition remission [i.e., tuition
                                     reimbursement] shall be charged against funds in connection with cooperative
                                     agreements between the Department of Agriculture and State cooperative
                                     institutions.” 14 ARS’ cooperative agreements acknowledged this rule by listing
                                     tuition reimbursement as an unallowable expense.

                                     In reviewing expenditures totaling $208,578 by a State cooperative
                                     institution, we found that ARS paid the cooperator $39,667 for tuition
                                     reimbursement costs between October 2005 and April 2007. The cooperator
                                     listed the cost on its expense report, but the ADODR responsible for the
                                     agreement mistakenly overlooked the cost. We discussed the issue with the
                                     ADODR who concurred that tuition reimbursement was unallowable based
                                     on the terms of the cooperative agreement.

                                     Also, during a physical review of equipment for the same cooperator, we found
                                     that two pieces of laboratory equipment had been returned to the vendor, but
                                     not credited against ARS’ reimbursement to the cooperator. Even though the
                                     equipment was returned over a year before our review, the cooperator had
                                     never credited its agreement account for the equipment costs, which totaled
                                     $11,073. Federal cost principles state that costs charged to the agreement
                                     should be adjusted for “applicable credits.”15

                                     The cooperator agreed to refund the $50,740 in unallowable charges made to
                                     the agreement. After identifying these unallowable costs, we reviewed
                                     nine other cooperators but did not find any other such reimbursements.




13
   We reviewed cooperators’ expenditures for 10 of our 31 sampled agreements. Depending on the results, we planned to either expand or limit our review.
For these 10 agreements, we reviewed expenditures totaling $1.7 million. Since we only identified one agreement with unallowable costs totaling $50,740,
we did not expand our review.
14
   7 U.S.C. 3319, dated Jan. 24, 2002.
15
   OMB Circular No. A-21, “Cost Principles for Educational Institutions,” dated May 10, 2004, sec. C.1. and C.5(a).

USDA/OIG-A/02601-1-SF                                                                                                                         Page 6
Recommendation 3
                   Direct the Pacific West area office to recover the $50,740 in unallowable costs
                   from the cooperator.

                   Agency Response.

                   In its response, dated April 3, 2009, ARS agreed with the recommendation.
                   ARS stated that it is working with the cooperator to recover $50,740 in
                   unallowable and recoverable costs identified in the finding. The agency plans
                   to forward documentation after receipt of the repayment.

                   OIG Position.

                   We agree with ARS’ corrective action. To achieve management decision,
                   ARS needs to provide OIG with a copy of the bill for collection and
                   documentation that an account receivable for $50,740 was established or a
                   justification for not recovering the questioned amount.




USDA/OIG-A/02601-1-SF                                                                      Page 7
Scope and Methodology
                   We conducted a nationwide review of ARS’ management controls over its
                   cooperative agreements for performing research. Our scope period was
                   FYs 2005 and 2006. We performed fieldwork at ARS’ Headquarters in
                   Beltsville, Maryland; two ARS area offices in Albany, California, and College
                   Station, Texas; and seven cooperator sites (see exhibit B for a complete list of
                   audit sites). We conducted audit fieldwork from January 2007 through July
                   2008, and performed the following procedures:

                   •    Reviewed Laws, Policies, and Procedures. We reviewed both the laws
                        governing ARS’ agreements, and the current policies and procedures
                        established by its Extramural Agreements Division as guidance for those
                        agreements.

                   •    Interviewed ARS Personnel. We interviewed Headquarters officials,
                        agreement specialists, and ADODRs to obtain information about pertinent
                        policies and procedures.

                   •    Reviewed Management Reports. We reviewed ARS’ Extramural
                        Agreement Management Reviews, and ARS’ Consolidated Assistance,
                        Review, and Evaluation Reports to identify any issues related to
                        agreements.

                   •    Analyzed Obligations on Expired Agreements. We used Audit Command
                        Language (ACL) software to compare obligation reports with agreement
                        data to identify agreements that expired in FYs 2005 and 2006.

                   To identify agreements for our scope period, we used ACL to analyze ARS’
                   agreements database (dated January 10, 2007). We determined that ARS had
                   2,018 agreements in its 8 area offices in FYs 2005 and 2006. In total, the
                   agency provided $652 million to fund the 2,018 agreements over their life—
                   $134 million in FYs 2005 and 2006.

                   Of the 2,018 agreements, we determined that 121 expired with unused funds
                   totaling $6 million in FYs 2005 and 2006. We reviewed these to determine
                   whether or not they were timely deobligated. Figure 2 shows the funding and
                   location of the 2,018 agreements.




USDA/OIG-A/02601-1-SF                                                                       Page 8
                                          Figure 2: Funding and Location of the 2,018 Agreements

                                Southern Plains                                                                         *178

                                     Mid South                                                             *195

                                  North Atlantic                                                          *155

                                   Pacific West                                 *286

                                       Midwest                        *314

                             EAD Headquarters                        *265

                                Northern Plains                  *226

                                      Beltsville               *185

                                 South Atlantic               *214

                                                   $-   $25          $50           $75             $100          $125   $150
                                                                             Millions of Dollars
                       * Total Number of Agreements



                   Of ARS’ eight area offices, we selected the Southern Plains area office for
                   review because it had a high amount of agreement funding, and the Pacific
                   West area office because it had the second largest number of agreements. The
                   two offices administered a total of 464 agreements. We judgmentally selected
                   31 of the 464 agreements that represented high, medium, and low funding
                   amounts, and included some agreements that started or expired during our
                   scope period. The 31 sampled agreements represented $72 million of
                   $180 million in funding for the 2 selected areas. To review the sampled
                   agreements, we:

                   •      Analyzed Agreement Files. We analyzed sampled agreement files to
                          determine whether ARS’ oversight of the cooperators’ research progress
                          (including research milestones and targets) and its management of funds
                          were adequate. We also evaluated if (1) indirect costs were budgeted
                          appropriately, (2) the amounts of the cooperators’ contributions were
                          adequate, and (3) cooperators made withdrawals more than 90 days after
                          the agreements’ expiration.

                   •      Reviewed Cooperators’ Performance and Financial Reports. We reviewed
                          sampled agreement files to determine whether or not required performance
                          and financial reports had been obtained timely from cooperators.

                   •      Analyzed Cooperator Cost-Share Amounts. We examined 8 of 31 sampled
                          agreements to determine whether or not cooperators met their cost-share
                          requirements. Our review was limited to eight agreements because ARS
                          does not require cooperators to report their cost-share contributions on the
                          financial status reports. Only eight cooperators did so voluntarily.



USDA/OIG-A/02601-1-SF                                                                                                          Page 9
                   •    Reviewed Cooperators’ Expenses and Equipment. We reviewed
                        cooperators’ internal financial reports and supporting documents, such as
                        invoices, for 10 of 31 sampled agreements to ensure ARS reimbursed
                        cooperators for allowable costs. Depending on the results, we planned to
                        either expand or limit our review. Since we only identified one agreement
                        with unallowable costs, we did not expand our review.

                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a reasonable basis
                   for our findings and conclusions based on our audit objectives.




USDA/OIG-A/02601-1-SF                                                                    Page 10
Exhibit A – Summary of Monetary Results
                                                                                                 Exhibit A – Page 1 of 1


       FINDING           RECOMMENDATION
                                                           DESCRIPTION             AMOUNT         CATEGORY a
       NUMBER                NUMBER

                                                     ARS’ area offices did not
                                                     deobligate unused funding
            1                         1              from 32 agreements that       $ 2,745,276     FTBPTBU -
                                                     expired during FYs 2005 and                   Deobligations
                                                     2006.

                                                     ARS’ Pacific West area
                                                                                                 Questioned Costs –
                                                     office reimbursed a
            2                         3                                              $ 50,740        Recovery
                                                     cooperator for unallowable
                                                     costs.                                       Recommended

 TOTAL MONETARY RESULTS                                                            $2,796,016

 a
     FTBPTBU means “Funds To Be Put To Better Use”




USDA/OIG-A/02601-1-SF                                                                                        Page 11
Exhibit B – Audit Sites
                                                                              Exhibit B – Page 1 of 1



                      ORGANIZATION                                    LOCATION

       ARS Headquarters:
        Extramural Agreements Division                            Beltsville, Maryland
        Office of Technology Transfer                             Beltsville, Maryland


       ARS Pacific West Area Office                               Albany, California

       Cooperators:
         University of California, Berkeley*                      Albany, California
         University of California, Davis*                         Davis, California
         Washington State University*                             Pullman, Washington


       ARS Southern Plains Area Office                            College Station, Texas

       Cooperators:
         Baylor College of Medicine                               Houston, Texas
         Texas A&M University                                     College Station, Texas
         Curators of the University of Missouri                   Columbia, Missouri
         Arkansas Children’s Hospital Research Institute          Little Rock, Arkansas


       * We reviewed two cooperative agreements at these sites.




USDA/OIG-A/02601-1-SF                                                                      Page 12
Exhibit C – Obligated Funds on the 32 Expired Agreements
                                                                                                                             Exhibit C – Page 1 of 1


                                                                                           Elapsed Days Past
                                                               Deobligation                                                        Funds
     Agreement                   Area Office                                              Deobligation Deadline
                                                                Deadline                                                       Not Deobligated
                                                                                             (As of Jan. 9, 2007) b

            1                 Southern Plains                   3/31/2006                             284                          $ 1,116,380
            2                    Mid-South                      2/28/2006                             315                            $ 723,628
            3                    Mid-South                      11/29/2005                            406                            $ 300,676
            4                  North Atlantic                   1/29/2006                             345                            $ 142,031
            5                   Pacific West                    3/15/2006                             300                            $ 139,209
            6                   Pacific West                    3/29/2006                             286                             $ 72,581
            7                   Pacific West                     5/1/2005                             618                             $ 69,508
            8                   Pacific West                    3/25/2006                             290                             $ 59,370
            9                  South Atlantic                   5/31/2005                             588                             $ 45,814
           10                  South Atlantic                   3/31/2006                             284                             $ 35,163
           11                   Pacific West                    3/15/2007                             108 c                           $ 10,872
           12                EAD a Headquarters                 12/24/2005                            381                               $ 7,809
           13                   Pacific West                     3/1/2006                             314                               $ 6,895
           14                EAD a Headquarters                 3/31/2006                             284                               $ 4,944
           15                    Mid-South                      11/28/2005                            407                               $ 3,000
           16                    Mid-South                      12/29/2005                            376                               $ 1,803
           17                EAD a Headquarters                 3/30/2006                             285                               $ 1,251
           18                    Mid-South                      10/29/2005                            437                               $ 1,003
           19                    Mid-South                      3/31/2006                             284                               $ 1,000
           20                    Beltsville                     3/31/2006                             284                                 $ 791
           21                    Mid-South                       7/1/2006                             192                                 $ 392
           22                   Pacific West                    10/29/2005                            437                                 $ 384
           23                   Pacific West                     6/1/2006                             222                                 $ 315
           24                   Pacific West                    3/26/2006                             289                                 $ 239
           25                   Pacific West                    3/31/2006                             284                                  $ 79
           26                    Beltsville                     3/31/2006                             284                                  $ 56
           27                     Midwest                       9/24/2005                             472                                  $ 40
           28                   Pacific West                    1/29/2006                             345                                  $ 12
           29                   Pacific West                    11/30/2006                             40                                  $ 12
           30                   Pacific West                     5/1/2006                             253                                    $7
           31                    Beltsville                      3/1/2006                             314                                    $6
           32                EAD a Headquarters                 3/31/2006                             284                                    $6
                                             AVERAGE ELAPSED DAYS                                      322

                        TOTAL OBLIGATED FUNDS ON THE 32 EXPIRED AGREEMENTS                                                         $ 2,745,276
 a
   Extramural Agreements Division (EAD).
 b
   We reviewed a report of open obligations dated Jan. 9, 2007.
 c
   As of July 1, 2007. This agreement passed its deobligation deadline after the date of the open obligation report, but we included the agreement
 here because it was in our sample.



USDA/OIG-A/02601-1-SF                                                                                                                        Page 13
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 3




USDA/OIG-A/02601-1-SF                     Page 14
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 3




USDA/OIG-A/02601-1-SF                     Page 15
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 3




USDA/OIG-A/02601-1-SF                     Page 16
